APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
LESLIE LARAY CRAWFORD,
Plaintiff-Appellant,
v.
CITY OF BAKERSFIELD, a municipal
entity, and AARON STRINGER, Officer,
Defendants-Appellees.
No. 16-17138
D.C. No.
1:14-cv-01735-SAB
OPINION
Appeal from the United States District Court for the
Eastern District of California Stanley Albert Boone,
Magistrate Judge, Presiding
Argued and Submitted February 6, 2019 San
Francisco, California

1a

Filed December 16, 2019
Before: Sidney R. Thomas, Chief Judge, Richard A.
Paez, Circuit Judge, and Gary Feinerman,* District
Judge.
Opinion by Judge Feinerman
SUMMARY**
Civil Rights
The panel vacated the district court’s judgment
in favor of defendants following a jury trial in an
action brought pursuant to 42 U.S.C. § 1983 and state
law arising from a police officer’s fatal shooting of
plaintiff’s son, Michael Dozer.
Plaintiff alleged that the district court abused
its discretion in excluding as irrelevant her testimony
about her percipient observations of Dozer’s past
behavior, which she offered to prove that police officer
Stringer should have recognized that Dozer was
exhibiting signs of mental illness at the time of their
encounter and therefore that the shooting was
unreasonable.

*

The Honorable Gary Feinerman, United States District
Judge for the Northern District of Illinois, sitting by designation.
**

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

2a

The panel held that the district court abused its
discretion in holding that plaintiff’s proposed
testimony was irrelevant because Stringer, at the time
of the shooting, did not know about the past events to
which plaintiff would have testified. The panel noted
that whether a suspect has exhibited signs of mental
illness is one of the factors a court will consider in
assessing the reasonableness of the force used. The
panel held that plaintiff’s testimony regarding Dozer’s
past behavior and treatment was relevant to whether
he would have appeared to be mentally ill on the day
of the shooting, and therefore whether Stringer knew
or should have known that Dozer was mentally ill.
The panel rejected defendants’ argument that
plaintiff’s testimony was an improper lay opinion
under Rule 701 because she lacked the expertise to
offer a psychological or psychiatric diagnosis. The
panel held that so long as plaintiff stopped short of
opining that Dozer had a mental illness, she was
competent to testify about her own observations of and
experiences with her Dozer.
The panel held that the district court’s error in
excluding plaintiff’s testimony undercut her ability to
prove a “central component” of her case: that a
reasonable officer in defendant’s position would have
recognized that Dozer was mentally ill. The panel
concluded that the evidentiary error was not harmless,
and that a new trial was warranted.

3a

COUNSEL
Emily T. Kuwahara (argued), Daniel P. Wierzba, Joel
Mallord, and Alice Hall-Partyka, Crowell & Moring
LLP, Los Angeles, California, for Plaintiff-Appellant.
Michael G. Marderosian (argued) and Heather S.
Cohen, Marderosian & Cohen, Fresno, California, for
Defendants- Appellees.
OPINION
FEINERMAN, District Judge:
Leslie Crawford sued the City of Bakersfield,
California and Bakersfield police officer Aaron
Stringer (together, “Defendants”), bringing 42 U.S.C.
§ 1983 and state law claims arising from Stringer’s
fatal shooting of Crawford’s son, Michael Dozer. After
a three-day trial, the jury returned a special verdict
finding that Stringer did not use excessive force or act
negligently, and the district court entered judgment
for Defendants. Crawford appeals, contending that the
district court abused its discretion in excluding as
irrelevant her testimony about her percipient
observations of Dozer’s past behavior, which she
offered to prove that Stringer should have recognized
that Dozer was exhibiting signs of mental illness at
the time of their encounter and therefore that the
shooting was unreasonable. We vacate the judgment
and remand for a new trial.

4a

Background
Stringer, an on-duty police officer with the
Bakersfield Police Department, shot and killed Dozer
at a gas station while responding to calls reporting
that Dozer “had poured gasoline on a woman and tried
to light her on fire.” Crawford brought this suit on her
own behalf and as Dozer’s successor in interest,
alleging Fourth Amendment excessive force claims
under § 1983 and state law wrongful death claims.
A.

The Shooting

At around 12:30 p.m. on August 6, 2014, Elsa
Torres was filling up her tank at a gas station. Dozer
approached Torres’s vehicle and removed the gas
nozzle from the tank, spraying some gas on her in the
process. Dozer then sprayed gas onto the ground
around himself and set it on fire, creating a flame that
Torres said went “maybe up to his knees.” Dozer also
took off some of his clothes. Torres drove away, called
911, and told the operator that there was a man
“trying to burn us.” While Torres was waiting for the
police to arrive, she saw Dozer go over to the area
outside a nearby mini-mart and start “knocking all the
stuff down, like the newspaper stands and stuff.”
Stringer was on patrol alone when he received
a call through dispatch that “a subject at the gas
station . . . had poured gasoline on a woman and tried
to light her on fire” and that the woman’s children
were in her car. While Stringer was on his way to the
gas station, he received a second call indicating that a
5a

woman “had been lit on fire and that she put it out and
left the scene.” It took Stringer “[m]aybe a couple of
minutes” to get to the gas station.
When Stringer arrived, he spoke with Torres,
who by that point was standing about fifty feet from
Dozer. Stringer did not observe on Torres any signs of
burns, bruising, or other physical injury, nor did
Torres say that she had been burned. Stringer spoke
with another witness, who said that Dozer had poured
gasoline on Torres but who did not report that anyone
had been injured.
Stringer testified that by the time Torres
identified Dozer, Dozer had moved away from the gas
pumps and toward the minimart. The closest people to
Dozer were twenty feet away. As far as Stringer could
see, Dozer did not have any gasoline or incendiary
liquids and was not assaulting anyone, but instead
was merely “pacing around” the area, looking “very
agitated.” Stringer thought that Dozer’s behavior was
“erratic” and “aggressive in general,” but not
aggressive toward Stringer in particular. Another
person at the scene, Rosalie Montiel, testified that
Dozer was “walking back and forth” and “looked
unapproachable,” but that she did not see him
threatening anyone. Carlos Cabrera, who was also at
the scene, testified that Dozer was shouting, hitting a
table with his hands, standing up, and sitting back
down repeatedly—“kind of going around in circles.”
Cabrera also recounted that Dozer was staring at
people and saying “odd things.”

6a

When Stringer approached Dozer, he did not
think Dozer was actively committing any crime while
pacing around the area near the minimart. Stringer
did, however, consider “the crime of assault with a
caustic chemical” against Torres to still be “in
progress” because it “had just occurred seconds . . . or
minutes” before. Stringer testified that he had not
drawn a weapon at that point and had no intention of
using force, and that he merely wanted to talk to
Dozer. Without waiting for backup, Stringer moved
closer so that he could hear what Dozer was saying.
According to Stringer, Dozer said, “You want to
do this. Let’s go.” Stringer responded, “No, let’s not do
this. I just want to talk to you.” Dozer’s words, along
with his pacing and his “amped up” and “angry”
demeanor, made Stringer think that Dozer “was
challenging [him] and had intended to challenge [him]
despite [his] clear uniform” identifying him as a police
officer. Stringer testified that he concluded that Dozer
was “under the influence of a narcotic and was visibly
agitated” and that the situation would “most likely . .
. escalate quickly,” leading him to call for expedited
backup. By that time, however, Stringer felt that he
“didn’t have the chance” to wait for backup, even
though he knew from radio transmissions that it was
on the way.
Stringer stopped about twenty feet away from
Dozer and told him to get on the ground. Stringer
testified that Dozer then began moving toward him
“very quickly,” picked up a horseshoe-shaped bike lock,
raised it over his head, ignored an order to put it down,
7a

and started “charg[ing]” toward him “quicker than [he]
could back up.”
Stringer testified that he started backing up and
drew his handgun. Stringer was also carrying three
nonlethal weapons: a Taser that could fire darts at a
range of up to twenty-six feet, pepper spray, and a
collapsible baton. Stringer claimed that those
alternatives were not viable because they would take
too long to deploy, as Dozer was approaching him
“with a deadly weapon,” the bike lock.
Ultimately, less than a minute after arriving on
the scene, Stringer shot Dozer. The first backup officer
to arrive, George Vasquez, was pulling up in his car
when he saw the shooting. Vasquez did not see
Stringer backpedaling at any point. He did, however,
see Dozer moving toward Stringer, and he believed
based on Dozer’s “facial demeanor” and “rapid
movement,” as well as the fact that Dozer was holding
the bike lock “over his head,” that Dozer intended to
harm Stringer. Vasquez testified that Dozer and
Stringer were about five to ten feet apart at the time
of the shooting.
The other eyewitnesses—Cabrera, Montiel, and
Torres—gave varying accounts of the lead-up to the
shooting, including testimony that conflicted with each
other’s and the officers’ accounts as to whether and
how quickly Dozer was moving toward Stringer;
whether Dozer was holding the bike lock at his side,
holding it in his raised hand, or swinging it at
Stringer; how close Dozer got to Stringer; and whether
8a

Stringer stayed put or backed away as Dozer
approached.
B.

Stringer’s Training

As part of his training, Stringer received a
Police Officer Standards and Training (“POST”)
certification. POST teaches officers how to recognize
symptoms of mental illness and respond to people
demonstrating those symptoms without escalating the
situation. As a requirement of POST, Stringer was
taught that erratic and irrational behavior and
attempted self-harm were indicators of mental illness.
He was trained that when responding to a situation
involving a person who appeared to be mentally ill, he
should slow down, wait for backup, and consider ways
of subduing the person using minimal force. He was
also trained to minimize the person’s anxiety by
speaking slowly, moving slowly, and turning down his
radio.
C.

Police Practices Experts

At trial, the parties presented testimony from
dueling police practices experts. Crawford’s expert,
Scott DeFoe, opined that Dozer’s “bizarre”
behavior—approaching Torres, pouring gasoline on
himself, lighting himself on fire, and then going over to
the minimart and acting strangely— would have led a
reasonable officer to believe that Dozer was “either
mentally ill or experiencing a mental crisis.” DeFoe
did, however, acknowledge that Dozer’s spraying
gasoline on Torres and himself also could have been
9a

consistent with his being under the influence of drugs.
DeFoe explained that while “officers are not going to
diagnose someone in the field,” they are taught to
recognize “what mental illness looks like.” DeFoe said
that the objective when dealing with a person who may
be suffering from mental illness is to “calm them
down” and “just get them handcuffed, with the least
amount of force possible.”
Given this understanding of reasonable police
practices, DeFoe concluded that Stringer did “the
opposite” of what he should have done: “Instead of
waiting for backup, instead of considering less than
lethal options, [Stringer] immediately just almost at a
rapid pace walked towards” Dozer. While recognizing
that it was “prudent” of Stringer to request expedited
backup, DeFoe faulted Stringer for failing to wait for
backup even though “time [was] on [his] side” in light
of the absence of continuing criminal activity. DeFoe
opined that Dozer posed no immediate threat because
he was “over there by himself,” with “no one else next
to him,” thus “mak[ing] it even more compelling that
you need to get a backup and get people before taking
any action.”
Defendants’ expert, Curtis Cope, disagreed. In
Cope’s view, Dozer continued to pose “an immediate
threat to the citizens” when Stringer arrived on the
scene, and Dozer then confronted Stringer with the
imminent threat of deadly force. Cope acknowledged
that officers are trained to recognize signs of mental
illness and respond accordingly, including by calling
for backup and moving slowly when circumstances
10a

permit. Cope opined, however, that an officer in
Stringer’s shoes could not have been expected to “think
. . . immediately” that someone who “took a nozzle out
of [a victim’s] gas tank, might have gotten some
gasoline on her, put gasoline on himself, [and] started
a fire right there at the station” was mentally ill.
Accordingly, Cope concluded that Stringer had
complied with all applicable standards and was “right
in doing what he did.”
D.
Crawford’s Deposition Testimony
Regarding Dozer’s Past Behavior and
Treatment
At her pretrial deposition, Crawford testified
that Dozer suffered from schizophrenia. Dozer often
talked to himself, and once asked Crawford, “[W]hy do
these voices keep messing with me?” After dropping
out of high school during his senior year, Dozer lived
with Crawford and her husband intermittently,
typically staying for three to six months and then
leaving. At other times, Dozer stayed with his sisters
or “would just be like in the streets, wandering, talking
to his-self.”
Crawford recalled that Dozer had received
counseling and various medications from a healthcare
provider called Turning Point. The medications tended
to work well for a time—perhaps a month—but then
would stop working. In addition to taking him to
Turning Point, Crawford and one of Dozer’s sisters
took him on multiple occasions to the Mary K. Shell
Mental Health Center, which Crawford understood to
11a

be a “crisis center.” Crawford knew that Dozer also
went “a few times” to “3-B,” meaning the Kern Medical
Psychiatric Inpatient Unit in Bakersfield.
As far as Crawford was aware, Dozer’s only drug
use was smoking marijuana “for a little while.” Dozer
told Crawford that, at first, “the weed helped him with
the voices that he heard,” but it eventually stopped
helping, so he stopped using it.
E.
The District Court’s Order Excluding
Crawford’s Testimony About Dozer’s Past
Behavior and Treatment
Defendants moved in limine to exclude “any
reference that [Dozer] was schizophrenic or suffered
from any mental illness,” arguing (as relevant here)
that the evidence was irrelevant and an improper lay
opinion. Crawford responded that evidence that
Dozer’s behavior on the day of the shooting was
consistent with the signs of mental illness that
Stringer was trained to recognize was relevant to the
critical question whether Stringer’s use of force was
reasonable.
The district court granted Defendants’ motion.
Crawford v. City of Bakersfield, 2016 WL 6038954
(E.D. Cal. Oct. 14, 2016). The court rejected
Defendants’ argument that any evidence of mental
illness was necessarily irrelevant, reasoning that
whether Dozer’s behavior “was due to being under the
influence of a drug such as PCP” or to mental illness
“is relevant to determining whether the force used in
12a

this instance was reasonable.” But the court barred
Crawford from testifying about her observations of
Dozer’s past behavior, reasoning that because Stringer
had no prior knowledge of Dozer, Crawford’s
observations were “not relevant to the issue of whether
[Stringer] should have known that [Dozer’s] behavior
[leading up to the shooting] could have been caused by
mental illness.”
F.
Jury
Arguments

Instructions

and Closing

The court instructed the jury that, when
determining whether Stringer used excessive force, it
should “consider all of the circumstances known to
Officer Stringer on the scene, including . . . whether it
should have been apparent to Officer Stringer that the
person he used force against was emotionally
disturbed.” During closing arguments, Crawford’s
counsel contended that the evidence “amply supported”
a finding that Stringer should have known that Dozer
was emotionally disturbed. Counsel directed the jury’s
attention to the evidence that Stringer was trained to
recognize signs of mental illness and respond
accordingly, as well as to the eyewitness accounts,
which suggested that it was apparent even without
training that there was “something wrong with Mr.
Dozer.”
In their closing argument, Defendants seized on
the lack of evidence that Dozer was mentally ill—a
lack of evidence resulting from the district court’s
exclusion of Crawford’s testimony regarding her
13a

observations of Dozer’s past behavior:
In this court of law, the Plaintiffs have
the burden of proof. They have to prove
the case. Have you heard any evidence
from any psychologist, psychiatrist,
anyone that said Mr. Dozer had any
mental illness at all? You haven’t heard
any evidence on that. That’s just
[Plaintiff’s counsel’s] speculation. He
wants you to accept that Mr. Dozer was
mentally ill and that somehow means
that he’s to be treated differently. There’s
been no evidence that he was mentally
ill, no evidence at all.
In fact, what [Plaintiff’s counsel] wants
you to believe, well, his conduct
demonstrated that Officer Stringer
should have known that he was mentally
ill. That conduct, as you heard in the
evidence, is consistent with drug use as
well, PCP use. . .
.....
And, again, on this issue of mental
illness, no evidence of that at all. Zero. If
this really was a case about how we
treated or responded to a mentally ill
person, you would have seen a medical
doctor, a psychiatrist, a psychologist
come in and tell you that they’ve either
14a

diagnosed Mr. Dozer or that there was
evidence of that. You’re being asked to
speculate on that, and . . . when you’re
asked to speculate, the Plaintiffs aren’t
carrying their burden by proving their
case by a preponderance of the evidence.
The jury returned a special verdict finding that
Crawford failed to prove that Stringer used excessive
force or was negligent, and the district court entered
judgment for Defendants. Crawford timely appealed.
Discussion
We have jurisdiction under 28 U.S.C. § 1291.
Contrary to Defendants’ suggestion that Crawford’s
notice of appeal is deficient because it identifies only
the judgment and not the order granting Defendants’
motion in limine, the in limine order merges with the
judgment and thus is properly before us. See Hall v.
City of Los Angeles, 697 F.3d 1059, 1070 (9th Cir.
2012).
“Evidentiary rulings are reviewed for abuse of
discretion.” Wilkerson v. Wheeler, 772 F.3d 834, 838
(9th Cir. 2014). The district court’s application of the
correct legal standard is an abuse of discretion if it is
“illogical,” “implausible,” or “without support in
inferences that may be drawn from the facts in the
record.” United States v. Espinoza, 880 F.3d 506, 511
(9th Cir. 2018) (quoting United States v. Hinkson, 585
F.3d 1247, 1262 (9th Cir. 2009) (en banc)). In the civil
context, an error will support reversal only if it “more
15a

probably than not tainted the verdict.” Wilkerson, 772
F.3d at 838 (internal quotation marks omitted)
(quoting Engquist v. Or. Dep’t of Argric., 478 F.3d 985,
1009 (9th Cir. 2007), aff’d, 553 U.S. 591 (2008)).
I.

Relevance
Testimony

of

Crawford’s Proposed

Evidence Rule 401 provides: “Evidence is
relevant if: (a) it has any tendency to make a fact more
or less probable than it would be without the evidence;
and (b) the fact is of consequence in determining the
action.” Fed. R. Evid. 401. Evidence Rule 402 provides
that relevant evidence is admissible unless another
rule or federal law provides otherwise, and that
irrelevant evidence is inadmissible. Fed. R. Evid. 402.
Rule 401’s “basic standard of relevance . . . is a liberal
one.” Daubert v. Merrell Dow Pharm., Inc., 509 U.S.
579, 587 (1993); see also United States v. Whitehead,
200 F.3d 634, 640 (9th Cir. 2000) (citing Rule 401 for
the proposition that relevance is a “minimal
requirement”); United States v. Curtis, 568 F.2d 643,
645 (9th Cir. 1978) (“Rule 401 . . . contains a very
expansive definition of relevant evidence.”).
Deciding whether a fact is “of consequence in
determining the action” generally requires considering
the substantive issues the case presents. See Fed. R.
Evid. 401 advisory committee’s note to 1972 proposed
rules (“Relevancy is not an inherent characteristic of
any item of evidence but exists only as a relation
between an item of evidence and a matter properly
provable in the case.”). Here, Crawford alleged that
16a

Stringer used excessive force in violation of the Fourth
Amendment and that his actions were negligent under
California law.
In evaluating a Fourth Amendment excessive
force claim, the jury asks “whether the officers’ actions
were ‘objectively reasonable’ in light of the facts and
circumstances confronting them.” Longoria v. Pinal
Cty., 873 F.3d 699, 705 (9th Cir. 2017) (alteration
omitted) (quoting Graham v. Connor, 490 U.S. 386,
397 (1989)). That analysis requires balancing the
“nature and quality of the intrusion on the individual’s
Fourth Amendment interests against the
countervailing governmental interests at stake.” Vos v.
City of Newport Beach, 892 F.3d 1024, 1030 (9th Cir.
2018) (quoting Graham, 490 U.S. at 396). “The
‘reasonableness’ of a particular use of force must be
judged from the perspective of a reasonable officer on
the scene, rather than with the 20/20 vision of
hindsight.” Id. at 1031 (quoting Graham, 490 U.S. at
396). The “three primary factors” in assessing the
government’s interest are (1) “the severity of the crime
at issue,” (2) “whether the suspect poses an immediate
threat to the safety of the officers or others,” and (3)
“whether the suspect is actively resisting arrest or
attempting to evade arrest by flight.” Id. (alteration
and internal quotation marks omitted). These factors
are not exclusive. Id. at 1033.
Crawford’s wrongful death claim turned on
similar considerations. To prevail on her negligence
theory, Crawford had to show that Stringer “had a
duty to use due care, that he breached that duty, and
17a

that the breach was the proximate or legal cause of the
resulting injury.” Hayes v. Cty. of San Diego, 305 P.3d
252, 255 (Cal. 2013) (quoting Nally v. Grace Cmty.
Church of the Valley, 763 P.2d 948, 956 (Cal. 1988)).
Under California law, “peace officers have a duty to act
reasonably when using deadly force.” Id. at 256. “The
reasonableness of an officer’s conduct is determined in
light of the totality of circumstances.” Id. California’s
totality-of-the-circumstances inquiry includes preshooting circumstances and thus “is broader than
federal Fourth Amendment law, which tends to focus
more narrowly on the moment when deadly force is
used.” Id. at 263; accord Mulligan v. Nichols, 835 F.3d
983, 991 (9th Cir. 2016) (“[N]egligence claims under
California law encompass a broader spectrum of
conduct than excessive force claims under the Fourth
Amendment.”).
The district court correctly held that evidence of
Dozer’s mental illness was relevant because the
reasonableness of Stringer’s use of deadly force
depended in part on whether he knew or should have
known that Dozer’s behavior was caused by mental
illness. Although we have “‘refused to create two
tracks of excessive force analysis, one for the mentally
ill and one for serious criminals,’ our precedent
establishes that if officers believe a suspect is mentally
ill, they ‘should make a greater effort to take control of
the situation through less intrusive means.’” Vos, 892
F.3d at 1034 n.9 (alterations omitted) (quoting Bryan
v. MacPherson, 630 F.3d 805, 829 (9th Cir. 2010)).
Accordingly, “whether the suspect has exhibited signs
of mental illness is one of the factors the court will
18a

consider in assessing the reasonableness of the force
used, in addition to the Graham factors, the
availability of less intrusive force, and whether proper
warnings were given.” Id.; see also Glenn v.
Washington Cty., 673 F.3d 864, 875 (9th Cir. 2011)
(“Another circumstance relevant to our analysis is
whether the officers were or should have been aware
that [the individual] was emotionally disturbed.”);
Deorle v. Rutherford, 272 F.3d 1272, 1283 (9th Cir.
2001) (“Even when an emotionally disturbed
individual is ‘acting out’ . . . , the governmental
interest in using [deadly] force is diminished by the
fact that the officers are confronted, not with a person
who has committed a serious crime against others, but
with a mentally ill individual.”).
The district court abused its discretion,
however, in holding that Crawford’s proposed
testimony was irrelevant on the ground that Stringer,
at the time of the shooting, did not know about the
past events to which Crawford would have testified.
Crawford’s testimony regarding Dozer’s past behavior
and treatment was relevant to whether he was in fact
mentally ill at the time. Evidence that Dozer had
previously behaved in ways consistent with mental
illness and had been taken to mental health providers
for treatment, makes it more likely that he continued
to suffer from mental illness on the day of the
shooting. In turn, whether Dozer was in fact mentally
ill that day is relevant to whether he would have
appeared to be mentally ill, and thus to whether
Stringer knew or should have known that Dozer was
mentally ill; after all, the existence of some underlying
19a

fact tends to make it more likely that a person knew or
should have known that fact. See United States v.
James, 169 F.3d 1210, 1214–15 (9th Cir. 1999) (en banc)
(holding that documents corroborating the stories that
the defendant claimed the decedent told her about the
decedent’s past acts of violence were relevant to her selfdefense argument even though she had never seen the
documents, reasoning that the truth of the decedent’s
stories made it more likely (1) that he had told them and
(2) that the stories “had the ring of truth” to the
defendant). Thus, Crawford’s testimony about Dozer’s
past behaviors and treatment was relevant even though
Stringer had no knowledge of them. See Boyd v. City &
Cty. of San Francisco, 576 F.3d 938, 944 (9th Cir. 2009)
(“[W]here what the officer perceived just prior to the use
of force is in dispute, evidence that may support one
version of events over another is relevant and
admissible.”); see also Estate of Escobedo v. Martin, 702
F.3d 388, 400 (7th Cir. 2012) (explaining that “evidence
unknown to officers at the time force was used” may be
relevant in evaluating credibility, such as by making it
more or less likely that “a suspect acted in the manner
described by the officer”).
Accordingly, the district court abused its
discretion in excluding Crawford’s proposed testimony
under Rules 401 and 402.
II.

Alternate
Ground
for Excluding
Crawford’s Proposed Testimony

On appeal, Defendants contend that Crawford’s
testimony was an improper lay opinion under Rule 701
20a

because she lacked the expertise to offer a
psychological or psychiatric diagnosis. That argument
misses the point. As Crawford notes, she was “not
attempting to testify that her son was diagnosed with
schizophrenia.” And as the district court correctly held,
Crawford was competent to testify as a lay witness
“regarding her observations of” Dozer’s past behavior.
Thus, so long as Crawford stopped short of opining
that Dozer had a mental illness, she was competent to
testify about her own observations of and experiences
with Dozer. See Frisone v. United States, 270 F.2d 401,
403 (9th Cir. 1959) (distinguishing between a witness’s
admissible lay testimony “as to his faulty recollection
and poor memory” and inadmissible “testimony as to
the existence or treatment of a mental illness serious
enough to cause permanent memory impairment,” and
noting that “only expert testimony will be allowed on
technical questions of causation”).
III.

Prejudicial Error

Defendants contend that any error in excluding
Crawford’s testimony was harmless. In a civil case, an
evidentiary error is prejudicial if it “more probably
than not tainted the verdict.” Wilkerson, 772 F.3d at
838 (quoting Engquist v. Or. Dep’t of Agric., 478 F.3d
985, 1009 (9th Cir. 2007), aff’d, 553 U.S. 591 (2008)).
Here, the district court’s error undercut Crawford’s
ability to prove a “central component” of her case: that
a reasonable officer in Stringer’s position would have
recognized that Dozer was mentally ill. See id. at 841.
The importance of the excluded testimony makes “the
likelihood of prejudice . . . difficult to overcome.” Id.
21a

As noted, the district court instructed the jury
to consider “whether it should have been apparent to
Officer Stringer that the person he used force against
was emotionally disturbed.” Granted, that factor
appeared in a list of nine nonexclusive factors for
determining whether Stringer’s use of force was
reasonable. But given the facts and circumstances of
this case, we have little doubt that it played an
important role in the jury’s verdict.
Excluding Crawford’s testimony was prejudicial
in at least three ways. First, evidence suggesting that
Dozer was in fact mentally ill “could have provided the
missing link to establish” that a reasonable officer in
Stringer’s position would have realized that Dozer was
mentally ill. Espinoza, 880 F.3d at 519. Without that
link, Crawford had to ask the jury to find that Stringer
should have known something she was unable to prove
directly.
Second, DeFoe’s opinion that Stringer should
have recognized Dozer’s mental illness almost
certainly would have carried more weight had
Crawford been able to present evidence indicating that
Dozer was in fact mentally ill. That is particularly so
given DeFoe’s acknowledgement that at least some of
Dozer’s behavior could also have been consistent with
his being under the influence of drugs—a theory that
Defendants seized on in their closing argument.
Crawford’s testimony would have bolstered DeFoe’s
opinion by making it more likely that Dozer’s behavior
was in fact a result of mental illness and thus more
likely that his behavior would have been viewed as
22a

such by a reasonable officer at the scene. See Geurin v.
Winston Indus., Inc., 316 F.3d 879, 885 (9th Cir. 2002)
(holding that the district court’s erroneous exclusion
from a products liability trial of evidence that the
product was improperly maintained by non-parties
“tainted the verdict” in that it prevented the defendant
“from providing the jury with an alternative
explanation,” thus “preordain[ing]” the jury’s verdict
that a design defect was the accident’s sole proximate
cause).
Third, Crawford’s testimony would have
deprived Defendants of a powerful component of their
closing argument—their submission that Crawford’s
mental illness theory had “[z]ero” evidentiary support.
Granted, Defendants could still have suggested in
closing that if Dozer had truly been mentally ill, “you
would have seen a medical doctor, a psychiatrist, a
psychologist come in and tell you that they’ve either
diagnosed Mr. Dozer or that there was evidence of
that.” But Defendants would not have been able to
argue that “[t]here’s been no evidence that he was
mentally ill, no evidence at all.” “[A]s this court has
recognized, ‘closing argument matters a great deal.’”
United States v. Bailey, 696 F.3d 794, 805 (9th Cir.
2012) (alteration omitted) (quoting United States v.
Kojayan, 8 F.3d 1315, 1323 (9th Cir. 1993)).
Defendants’ emphasis in their closing on the lack of
evidence that Dozer was in fact mentally ill reinforces
its centrality to Crawford’s case.
Defendants’ argument that the error was
harmless is without merit. Reversing course from what
23a

they told the jury in their closing, Defendants submit
that there was so much evidence of mental illness—the
testimony about Stringer’s training to recognize
mental illness, DeFoe’s opinion that a reasonable
officer would have concluded that Dozer was mentally
ill, and the eyewitness testimony that Dozer appeared
disturbed—that Crawford’s excluded testimony was
unlikely to have made a difference to the verdict. But
as discussed above, the evidence that Crawford was
allowed to present carried far less weight than it
would have had she been able to provide testimony
indicating that Dozer was in fact mentally ill.
The case cited by Defendants to support their
harmless error argument, Smith v. City & Cty. of
Honolulu, 887 F.3d 944, 953 (9th Cir. 2018), is
distinguishable. In Smith, we held that an improper
reference during closing argument to a “tub of
additional substances” supposedly found on the
plaintiff’s property was “unlikely to have swayed the
jury”—which had, after all, heard witnesses
characterize the property as a drug warehouse—and
was therefore harmless. Id. Here, by contrast,
Crawford does not contend that Defendants’ closing
argument was improper; rather, she contends that
Defendants’ emphasis on the absence of the
erroneously excluded evidence in their closing
demonstrates the importance of that evidence.
Finally, Defendants make a strawman
argument, suggesting that Crawford “would like this
Court to take the position that any use of deadly force
against an individual who is mentally ill is always
24a

unreasonable or unlawful.” That is not what Crawford
argues, nor do we adopt that position simply by
protecting her ability to offer relevant evidence to
prove an important but not dispositive factor in the
excessive force analysis.
Accordingly, the district court’s evidentiary
error was not harmless, and a new trial is warranted.
The parties shall bear their own costs.
VACATED and REMANDED.

25a

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
LESLIE LARAY CRAWFORD,
Plaintiff,
v.
CITY OF BAKERSFIELD, et al.,
Defendants.
Case No. 1:14-cv-01735-SAB
ORDER RE DEFENDANTS' MOTIONS IN
LIMINE NO. 1 AND 9
(ECF Nos. 45, 46, 48, 49, 52, 55, 74, 76, 78)
I.
BACKGROUND
On September 15, 2016, the parties filed
motions in limine in this action. On October 6, 2016,
the Court conducted oral argument on the parties'
motions in limine. On this same date, Defendant filed
a supplemental motion in limine no. 9. During the
hearing, the Court granted the parties the opportunity
to file supplemental briefing on Defendants' motion in
26a

limine no. 1 and set a briefing schedule for the motion
in limine no. 9 filed on October 6, 2016. The Court
issued an order addressing the parties' motions in
limine filed September 15, 2016, but deferring ruling
on Defendants' motion in limine no. 1.
On October 10, 2016, Defendants filed
supplemental briefing regarding motion in limine no 1.
On October 12, 2016, Plaintiff filed supplemental
briefing regarding Defendant's motion in limine no. 1
and an opposition to Defendants' motion in limine no.
9. On October 13, 2016, Defendants filed a reply to
Plaintiff's opposition to motion in limine no. 9 and a
reply to Plaintiff's supplemental brief regarding
motion in limine no. 1.1
II.
LEGAL STANDARD
A party may use a motion in limine to exclude
inadmissible or prejudicial evidence before it is
actually introduced at trial. See Luce v. United States,
469 U.S. 38, 40 n.2 (1984). “[A] motion in limine is an
important tool available to the trial judge to ensure the
expeditious and evenhanded management of the trial
proceedings.” Jonasson v. Lutheran Child and Family
Services, 115 F.3d 436, 440 (7th Cir. 1997). A motion in

1

The Court notes that the order addressing the motions
in limine did not provide for a reply by Defendants to motion in
limine no. 1, and the pretrial order specifically noted that reply
briefs to motions in limine would not be considered.

27a

limine allows the parties to resolve evidentiary
disputes before trial and avoids potentially prejudicial
evidence being presented in front of the jury, thereby
relieving the trial judge from the formidable task of
neutralizing the taint of prejudicial evidence. Brodit v.
Cambra, 350 F.3d 985, 1004-05 (9th Cir. 2003).
Motions in limine that exclude broad categories
of evidence are disfavored, and such issues are better
dealt with during trial as the admissibility of evidence
arises. Sperberg v. Goodyear Tire & Rubber, Co., 519
F.2d 708, 712 (6th Cir. 1975). Additionally, some
evidentiary issues are not accurately and efficiently
evaluated by the trial judge in a motion in limine and
it is necessary to defer ruling until during trial when
the trial judge can better estimate the impact of the
evidence on the jury. Jonasson, 115 F.3d at 440.
III.
DISCUSSION
Currently pending before the Court are
Defendants' motion in limine no. 1, filed September 15,
2016, to exclude evidence regarding an incident
involving Ramiro Villegas, and Defendants' motion in
limine no. 9 to preclude Plaintiff from offering evidence
regarding Decedent's mental health issues.
A.

Defendants’ Motion in limine No. 1

In November 2014, Defendant Stringer took a
trainee to Kern Medical Center to view the body of a
28a

suspect that had been killed by a Bakersfield police
officer. During the incident, Defendant Stringer
manipulated the body and made inappropriate
comments. Defendant Stringer was ultimately
terminated for the incident. Defendants seek to
exclude evidence of what occurred during this incident
arguing it has no relevance to the underlying action.
Defendant Stringer was not involved in the shooting of
this individual.
Plaintiff argues that Defendant Stringer
instructed the trainee who was present during the
incident to falsely state to Bakersfield Police
Department detectives that she did not see the body of
the shooting victim. Plaintiff argues this is highly
probative of Defendant Stringer's character for
truthfulness. In their supplemental briefing,
Defendants argue that this has no probative value in
this action and seek to exclude the evidence on the
ground that the prejudice outweighs its probative
value and needlessly prolongs the case as it will result
in Defendant Stringer introducing evidence of his
character for truthfulness.
1.

Allegation that Defendant Stringer
Instructed Trainee to Lie

Rule 608 of the Federal Rules of Evidence
provides:
Except for a criminal conviction under
Rule 609, extrinsic evidence is not
admissible to prove specific instances of
29a

a witness's conduct in order to attack or
support the witness's character for
truthfulness. But the court may, on
cross-examination, allow them to be
inquired into if they are probative of the
character for truthfulness or
untruthfulness of: (1) the witness . . . .
Fed. R. Evid. 608(b).
During the trial of this action, the jury will be
tasked with evaluating Defendant Stringer's testimony
regarding his perception of the events that occurred on
the date of Decedent's death to determine the
reasonableness of his use of deadly force. While
Defendants argue that this occurred after the
excessive force allegations at issue in this action, this
incident occurred within approximately four months of
the incident at issue here, and involves an allegation
that Defendant Stringer instructed a trainee to lie
during an investigation to cover up Defendant
Stringer's wrongful conduct while on duty. The Court
finds that the allegation that Defendant Stringer
instructed a trainee to falsify information during an
investigation to cover up Defendant Stringer's
misconduct is highly probative of his character for
untruthfulness.
Defendants rely on Foster v. Davis, No. 10 C
6009, 2013 WL 6050147 (N.D. Ill. Nov. 15, 2013), in
which the court found it was not error to preclude
evidence that a correctional officer had lied in a prior
incident report. In Foster, there was an investigation
30a

into whether the officer had used excessive force in
dealing with an inmate. Id. at *3. The plaintiff was
arguing that a disciplinary report found that the
correctional officer had previously filed an incident
report that was untruthful. Id. The report issued in
the investigation stated that evidence “did not support
the version of events provided” by the correctional
officer. Id. The court found that the prior incident
report contained no specific findings that the officer
had lied in the prior report. Id. The Court finds this to
be distinguishable from the situation presented here
where the allegation is based upon specific statements
of a witness that Defendant Stringer told her to lie
during an investigation.
2.

Probative Value is Not Substantially
Outweighed by the Factors Identified in
Rule 403

Defendants argue that Plaintiff should be
precluded from asking whether Defendant Stringer
ever instructed the trainee to lie during the
investigation because it is not relevant to Defendant
Stringer's character for truthfulness at the time the
incident alleged in this action occurred, will needlessly
prolong the trial of this action, and will shift the jury's
focus away from the actual issues in this action.
Evidence under Rule 608 is also subject to
exclusion, “if its probative value is substantially
outweighed by a danger of one or more of the following:
unfair prejudice, confusing the issues, misleading the
jury, undue delay, wasting time, or needlessly
31a

presenting cumulative evidence.” Fed. R. Evid. 403.
First, as discussed above, the Court finds that
the allegation is highly probative as to Defendant
Stringer's character for truthfulness in this action.
Defendant argues that the evidence is so tangential
that it has no probative value. However, the incident
was close in time to the incident at issue in this action,
approximately four months, and involved allegations
that Defendant Stringer instructed a trainee to lie
during an investigation into Defendant Stringer's
conduct.
“Evidence is relevant if: (a) it has any tendency
to make a fact more or less probable than it would be
without the evidence; and (b) the fact is of consequence
in determining the action.” Fed. R. Evid. 401. The jury
will be tasked with determining which testimony to
believe in this action. Evidence that Defendant
Stringer instructed a trainee to lie would make it less
probable that his testimony in this action is truthful.
Therefore, the Court rejects the argument that the
incident should be precluded because it is irrelevant in
this action.
Although Defendants argue that the evidence is
prejudicial, they do not address any prejudice that
would result should Plaintiff be allowed to propound
the question to Defendant Stringer during trial. To the
extent that the question suggests that Defendant
Stinger would be untruthful to protect himself that is
what creates the high probative value of the allegation.

32a

Defendants also argue that allowing Plaintiff to
ask the question will require them to call multiple
witnesses to testify to the character of Defendant
Stringer including commendations that Defendant
Stringer received prior to this incident. Pursuant to
Rule 608, “evidence of truthful character is admissible
only after the witness's character for truthfulness has
been attacked. Fed. R. Evid. 608(a). Therefore, if
Plaintiff questions Defendant Stringer regarding the
allegations that he instructed a trainee to lie during an
investigation, Defendant Stringer may present
witnesses to testify to his character for truthfulness.
However, the Court will limit the number of witnesses
and only testimony regarding Defendant Stringer's
character for truthfulness would be admissible.
Therefore, the Court does not find that allowing
Plaintiff to question Defendant Stringer regarding
whether he told a trainee to lie during an investigation
would result in undue delay or wasting the jury's time.
Finally, Defendants argue that it will shift the
focus away from the issue to be decided in this action,
which is whether Defendant Stringer used excessive
force. However, Defendant Stringer's testimony
regarding what occurred during the incident is
unquestionably relevant to this action; and therefore,
his truthfulness is at issue. Allowing Plaintiff to
question Defendant Stringer regarding whether he had
instructed a trainee to lie during an investigation,
while placing the focus on the truth of Defendant
Stringer's testimony, does not place the focus on
incidents other than that at issue here.

33a

The Court finds that the probative value of the
questioning substantially outweighs the risk of unfair
prejudice, confusing the issues, misleading the jury,
undue delay, wasting time, or needlessly presenting
cumulative evidence.
3.

Extrinsic Evidence is Not Admissible to
Impeach Defendant Stringer's Credibility

While the opposing party may impeach a
witness with specific incidents of conduct that are
probative of his character for truthfulness or
untruthfulness if he has a good faith basis for the
questioning, the party is precluded by Rule 608(b) from
offering extrinsic evidence concerning the incident in
question. United States v. Crowley, 318 F.3d 401, 418
(2d Cir. 2003); United States v. Estell, 539 F.2d 697,
700 (10th Cir. 1976) (“[t]he showing must be in the
form of cross-examination of the witness himself;
extrinsic evidence may not be introduced.”)
Accordingly, Plaintiff may, on cross examination,
question Defendant Stringer regarding whether he
instructed the trainee to falsify information during an
investigation, however, no extrinsic evidence of the
incident is admissible for the purposes of
impeachment. In other words, while Plaintiff may
inquire of Defendant Stringer if the incident occurred,
she will have to live with the answer given by
Defendant Stringer.
[E]xtrinsic evidence of such acts is
always deemed collateral. On the one
hand, even under the general rule if the
34a

witness initially denies perpetrating the
act, the cross-examiner may pressure the
witness for an honest answer by
reminding the witness of the penalties of
perjury and perhaps by confronting the
witness with his own writing mentioning
the act. On the other hand, when the
witness sticks to his guns and adamantly
refuses to concede the act, the crossexaminer must “take the answer” even
though it would be relatively easy for the
cross-examiner to expose the perjury.
Even if a person with personal knowledge
of the witness's act were sitting in the
courtroom, the cross-examiner could not
later call that person to the stand to
prove the prior witness's commission of
the deceitful act.
1 McCormick on Evidence §49 (7th ed.).
Plaintiff argues that the circumstances of the
incident are inextricably intertwined with the
allegations that Defendant Stringer instructed the
trainee to testify falsely. However, the Court
disagrees. The issue to be presented to the jury is that
during an investigation, Defendant Stringer instructed
a trainee to make a false statement. The substance of
the statement is irrelevant, it is the fact that
Defendant Stringer instructed the trainee to make the
false statement that is probative on the issue of his
truthfulness.

35a

Further, the incident at Kern Medical Center is
unrelated to this action and the allegations against
Defendant Stringer are in no manner similar to the
claims in this action. It is undisputed that Defendant
Stringer was not involved in the shooting of the
decedent in the Kern Valley Medical Center incident.
Evidence of the allegations in the Kern Valley Medical
Center incident are directed at the character of
Defendant Stringer and admission of such evidence
raises the substantial risk of prejudice to Defendants
that the jury could decide to punish Defendant
Stringer for his actions in this unrelated incident at
the Kern Valley Medical Center. Further, the Court
finds that admission of such evidence would result in
unnecessarily wasting the jury's time. Accordingly, the
Court finds that the November 2014 incident at Kern
Medical Center is improper character evidence under
Rule 608, and to the extent that there is any relevance
in this action, should be excluded pursuant to Rule
403.
Finally, Defendants argue that Plaintiff did not
disclose this witness in her Rule 26 disclosures.
However, Rule 26 provides that a party must provide
to the opposing party the “name and, if known, the
address and telephone number of each individual
likely to have discoverable information--along with the
subjects of that information--that the disclosing party
may use to support its claims or defenses, unless the
use would be solely for impeachment.” Fed. R. Civ. P.
26(a)(1). See Gribben v. United Parcel Serv., Inc., 528
F.3d 1166, 1172 (9th Cir. 2008) (“impeachment
evidence does not have to be revealed in pretrial
36a

disclosure”). Therefore, Rule 26 does not provide a
ground for exclusion of the evidence.
4.

Impeachment by Contradiction

Plaintiff argues that extrinsic evidence would be
admissible as impeachment by contradiction if
Defendant Stringer testifies that he did not instruct
the trainee to lie during the investigation.
Impeachment by contradiction is governed by
Rule 607 of the Federal Rules of Evidence. United
States v. Castillo, 181 F.3d 1129, 1133 (9th Cir. 1999).
Impeachment by contradiction permits the admission
of extrinsic evidence that specific testimony is false
because it is contradicted by other evidence. Castillo,
181 F.3d at 1133.
[D]irect-examination
testimony
containing a broad disclaimer of
misconduct sometimes can open the door
for extrinsic evidence to contradict even
though the contradictory evidence is
otherwise inadmissible under Rules 404
and 608(b) and is, thus, collateral. This
approach has been justified on the
grounds that the witness should not be
permitted to engage in perjury, mislead
the trier of fact, and then shield himself
from impeachment by asserting the
collateral fact doctrine.
Id. (quoting 2A Charles A. Wright & Victor J. Gold,
37a

Federal Practice and Procedure, § 6119 at 116–17
(1993)). In Castillo, the Ninth Circuit recognized that
courts are more willing to allow impeachment by
contradiction where the testimony is volunteered on
direct examination, but that there may be situations
where testimony given during cross-examination may
be impeached by contradiction. Castillo, 181 F.3d at
1134.
Plaintiff relies on U.S.A. v. Boyajian, No. CR09933(A)-CAS, 2016 WL 225724 (C.D. Cal. Jan. 19,
2016), in support of her argument that extrinsic
testimony would be admissible should Defendant
Stringer deny on cross examination that he instructed
a trainee to lie. In Boyajian, the defendant was
charged with one count of travel with intent to engage
in illicit sexual contact with a minor, one count of
engaging in illicit sexual contact with a minor, and one
count of commission of a felony offense involving a
minor while required to register as a sex offender.
Boyajian, 2016 WL 225724, at *1.) The government
brought a motion in limine to admit evidence to
impeach the defendant if he testified at trial.
Specifically, the government sought to admit
evidence that during his state court proceedings
alleging similar allegations, the defendant had
instructed his victim to testify that he had not engaged
in sexual activity with her. Id. at *6. When the victim
expressed concern that she would be committing
perjury, he told her “no one prosecutes perjury.” Id.
The defendant also threatened to sue her family and
take everything they had and threatened that he
38a

might have to kill her father if she told what had
happened. Id. If the defendant testified at trial, the
government sought to admit transcripts of telephone
conversations between the defendant and the victim in
which he repeatedly instructed the victim to lie about
their relationship so he would not have to go to jail. Id.
at *10. The court found that these incidents were
highly probative of his propensity to tell the truth and
if he testified it was likely that he would attempt to
contradict the testimony of his alleged victim. Id. at
*10. The court held that, in this case, the defendant's
credibility would be of crucial importance because the
jury would have to believe either the victim or the
defendant's version of the events. Id.
Relying on United States v. Diaz, No. 2:13-CR00148-JAD, 2014 WL 4384492 (D. Nev. Sept. 4, 2014),
appeal dismissed (Nov. 4, 2014), Defendants reply that
Plaintiff cannot impeach by contradiction solely to
show that the witness is lying. In Diaz, the trial court
did not allow extrinsic evidence where the purpose of
the extrinsic evidence was to show the officer was a
liar and untruthful in his investigation. Id. at *10.
The Court finds that the testimony sought to be
presented in this matter is distinguishable from that
sought to be admitted in Boyajian. While in Boyajian,
the defendant had been charged with a similar crime
and had attempted to persuade his victim to lie, there
is no similarity between the evidence that Defendant
Stringer instructed a trainee to lie during an
investigation and whether he used excessive force in
this action. Further, the Boyajian court was presented
39a

with transcripts of conversations between the victim in
the previous case and the defendant. Therefore, the
evidence was easily admissible and was not likely to
evolve into a separate trial of an unrelated issue.
Finally, the Government sought to admit the
testimony to prove that the defendant had engaged in
similar sexual conduct with the alleged victim in the
action.
Similar to Diaz, it appears that Plaintiff is
attempting to admit extrinsic evidence that Defendant
Stringer asked someone in a different incident to lie so
that she can show that Defendant Stringer is being
untruthful here. If this is the case, it would be
improper impeachment by contradiction. See United
States v. Kozinski, 16 F.3d 795, 806 (7th Cir. 1994)
(“one may not contradict for the sake of contradiction;
the evidence must have an independent purpose and
an independent ground for admission”).
In this instance, Plaintiff seeks to admit
extrinsic evidence upon the cross examination of
Defendant Stringer. The issue of whether extrinsic
evidence would be admissible upon the cross
examination of Defendant Stringer as impeachment by
contradiction is not capable of being decided in a
motion in limine. Accordingly, if Plaintiff determines
that such evidence is admissible following the cross
examination of Defendant Stringer, she is required to
address the matter with the Court outside the
presence of the jury.

40a

5.

Plaintiff May Cross Examine Defendant
Stringer Regarding Allegation He
Instructed Trainee to Lie During an
Investigation

Based on the foregoing, the Court finds that
Plaintiff may, on cross-examination, inquire of
Defendant Stringer whether he has instructed a
trainee to lie during an investigation. However, absent
evidence elicited at trial, no extrinsic evidence is
admissible to impeach Defendant Stringer and the
substance of the underlying investigation is not to be
inquired into during the trial of this action.
B.

Defendants’ Motion in limine No. 9

Defendants' motion in limine no. 9 seeks to
exclude evidence that Decedent was schizophrenic or
suffered from any mental illness. Defendants argue
that this information was unknown to Defendant
Stringer at the time of the incident and Plaintiff
should not be permitted to testify to Decedent's
condition because she is not medically qualified and
any testimony she could render would be hearsay.
1.

Decedent's Mental Illness

Defendants first move to exclude the evidence
on the ground that Defendant Stringer did not know
that Decedent suffered from mental illness or
schizophrenia and the evidence of mental illness
should be excluded on the same basis that Plaintiff
sought to exclude evidence of Decedent's bad acts. The
41a

question to be decided in addressing whether
Decedent's mental illness is relevant in this action is
would the evidence make a fact of consequence in
determining the action more or less probable than it
would be without the evidence. Fed. R. 401. In an
excessive force action, the relevant “question is
whether the officers' actions are 'objectively
reasonable' in light of the facts and circumstances
confronting them, without regard to their underlying
intent or motivation.” Graham v. Connor, 490 U.S.
386, 397 (U.S. 1989); Smith v. City of Hemet, 394 F.3d
689, 701 (9th Cir. 2005).
Here, Decedent had just pulled the gasoline
hose from a vehicle and set gasoline on fire at a gas
station. When Defendant Stringer arrived at the scene
he observed Decedent pacing back and forth. Decedent
made statements to Defendant Stringer as he
approached. Clearly, in determining the
reasonableness of Defendant Stringer's decision to fire
his weapon Decedent's actions prior to Defendant
Stringer drawing and firing his weapon are relevant.
Based on his knowledge of what was alleged to have
occurred and the observed behavior, Defendant Stinger
believed Decedent was under the influence of a drug
like PCP, which makes individuals very agitated and
angry. Plaintiff contends that it was Decedent's mental
health issues that were causing this behavior.
Unlike Decedent's prior criminal history, which
would not be evident from the observations made by
Defendant Stringer in interacting with Decedent, it
was evident to Defendant Stringer that Decedent was
42a

angry and acting in an aggressive manner. Whether
this was due to being under the influence of a drug
such as PCP or because Decedent was suffering from
mental illness is relevant to determining whether the
force used in this instance was reasonable. Therefore,
Defendants' motion to exclude evidence that Decedent
was schizophrenic or suffered from any mental illness
is denied.
However, the issue remains as to the
competency of the witnesses in this action to testify as
to Decedent's mental illness. Defendants move to
preclude Plaintiff from offering such evidence arguing
she is not competent to offer evidence as to Decedent's
mental health issues. Defendants move to exclude any
such testimony by Plaintiff on the grounds that it
would be hearsay and that she is not qualified as a
medical expert in this action. Plaintiff responds that
the testimony as to Decedent's mental illness is
relevant because officers are trained to recognize
behavioral indicators that are typically associated with
mental illness and Decedent demonstrated each of
those behaviors. Plaintiff counters that there will be
significant expert testimony concerning the behavioral
indicators associated with mental illness and how
officers are trained to respond. Defendant responds
that Plaintiff did not designate an expert to present
medical testimony in this action; and Plaintiff's use of
force expert is not competent to render medical
testimony nor is any other witness so qualified.

43a

a.

Expert Testimony

Under the Federal Rules of Evidence a “witness
who is qualified as an expert by knowledge, skill,
experience, training, or education may testify in the
form of an opinion or otherwise if: a) the expert's
scientific, technical, or other specialized knowledge
will help the trier of fact to understand the evidence or
to determine a fact in issue; b) the testimony is based
upon sufficient facts or data; c) the testimony is the
product of reliable principles and methods; and d) the
witness has applied the principles and methods
reliably to the facts of the case.” Fed. R. Evid. 702. If a
witness is not testifying as an expert in the action, “the
witness' testimony in the form of opinions or inferences
is limited to those opinions or inferences which are (a)
rationally based on the perception of the witness; (b)
helpful to a clear understanding of the witness'
testimony or the determination of a fact in issue; and
(c) not based on scientific, technical, or other
specialized knowledge within the scope of Rule 702.”
Fed. R. Evid. 701.
A witness is competent to testify to those
matters of which they have personal knowledge. Fed.
R. Evid. 601, 602. “[L]ay witnesses have been held
incompetent to testify as to the existence or treatment
of physical illnesses” and mental condition. Frisone v.
United States, 270 F.2d 401, 403 (9th Cir. 1959). While
a witness may testify to her own observations and
opinions that are rationally based on the perception of
the witness, the existence or treatment of a mental
illness “falls clearly outside the area of common
44a

knowledge and within the area where expert testimony
is required.” Frisone, 270 F.2d at 403. Therefore,
Plaintiff may not present lay witness testimony
regarding the existence or treatment of a mental
illness.
While Plaintiff may present lay witness
testimony regarding factual matters and opinions
within her personal knowledge regarding Decedent's
mental condition, the issue is that Plaintiff is not
testifying as to her observations on the date of the
incident but as to her prior knowledge of Decedent's
mental illness. However, it is undisputed that
Defendant Stringer had no prior knowledge of
Decedent and was therefore unaware of any prior
history of mental illness. Although Plaintiff may
present expert testimony in the liability phase of trial
regarding indicators of mental illness and the training
officers receive, Plaintiff's testimony regarding her
observations of Decedent on other occasions is not
relevant to the issue of whether Defendant Stringer
should have known that that Decedent's behavior
could have been caused by mental illness.
Plaintiff also argues that Decedent's history of
mental illness is relevant to whether Decedent's award
of damages will be reduced on the basis of his
comparative fault. Defendants did not respond to this
specific argument.
“Evidence is relevant if: (a) it has any tendency
to make a fact more or less probable than it would be
without the evidence; and (b) the fact is of consequence
45a

in determining the action.” Fed. R. Evid. 401.
However, in California, “[a] person of unsound mind,
of whatever degree, is civilly liable for a wrong done by
the person.” Cal. Civ. Code § 41. Therefore, courts have
held that a mental illness is not a defense to
negligence. Bashi v. Wodarz, 45 Cal. App. 4th 1314,
1323 (1996). Liability for negligence in California is
predicated on an objective reasonable person standard.
Bashi, 45 Cal.App.4th at 1323. The Court finds this to
be consistent with the California jury instruction
defining negligence.
A person is negligent if he or she does something that
a reasonably careful person would not do in the same
situation or fails to do something that a reasonably
careful person would do in the same situation.
California Civil Jury Instruction 401. Therefore, the
Court finds that Decedent's mental illness is not
relevant on the issue of comparative fault.2
Accordingly, Defendants' motion in limine no. 9
to exclude testimony regarding Decedent's mental
illness is granted.

2

Defendants also seek to exclude evidence of Decedent's
mental illness on the ground of hearsay. As the Court has found
that Plaintiff is not competent to testify as to the existence or
treatment of a mental illness and Decedent's mental illness is
irrelevant to damages, the Court declines to address the hearsay
issue.

46a

IV
CONCLUSION AND ORDER
Based on the foregoing, IT IS HEREBY
ORDERED that:
1.

Defendants' motion in limine no. 1 to
exclude evidence regarding an incident
involving Ramiro Villegas is GRANTED
IN PART AND DENIED IN PART as
follows:

a.

Defendants motion to exclude evidence of
the November 2014 incident at Kern
Medical Center involving Ramiro
Villegas is GRANTED. However, on cross
examination, Defendant Stringer's
instruction to a trainee to falsify
information during an investigation may
be inquired into; and

2.

Defendants' motion in limine no. 9 is
GRANTED.

IT IS SO ORDERED.
Dated: October 13, 2016
/s/
UNITED STATES MAGISTRATE JUDGE

47a

